• .1

IN THE SUPREME COURT OF THE UNITED STATES
No.
Susan Chen.
Petitioner
v.
Darren Migita et al.
Respondents
CERTIFICATE OF SERVICE
I, Susan Chen, hereby certify that on this 3rd day of June, 2021,1 caused three
copies of the Petition for writ of certiorari to be served by priority mail on the
following counsel. On this 18th of July, 2021,1 mailed a copy of the Petition to all the
counsel on record.
Rando B. Wick
Michelle S. Taft
Attorneys for Defendant Seattle Children’s Hospital
925 Fourth Ave., Ste. 2300
Seattle, WA 98104
wickr@j gkmw. com
michelle@jgkmw.com
Bruce W. Megard, Jr.
David Norman
Attorneys for Defendants Migita, Kodish, and Metz
601 Union Street, Suite 1500
Seattle, Washington 98101-1363
(206) 622-5511
bmegard@bbllaw.com
dnorman@bbllaw.com
Howard M. Goodfriend
Smith Goodfriend, PS
1619 8th Avenue N.
Seattle, WA 98109
howard@washingtonappeals.com

BECEWED
OCT- h 2021

I declare under penalty of perjury that the foregoing is true and correct. \ ffjjjgfme r^cRTTu.s^
/s/ Susan Chen
Susan Chen_______ _
PO BOX 134 RediEoijlE© -AmED

JUL 2 9 2021

No.

3fn tlje Supreme Court of tfje Untteb States?
Susan Chen.
Petitioner
v.
Darren Migita et al.

Respondents

CERTIFICATE OF COMPLIANCE
Pursuant to Supreme Court Rule 33.1 (h), I certify that the PETITION FOR
A WRIT OF CERTIORARI in the above-entitled case complies with the typeface
requirement of Supreme Court Rule 33.1 (b), being prepared in Century Schoolbook
12 point for the text and 10 point for the footnote, and the this brief contains 7020
words, excluding the parts of the documents that are exempted by the Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the forgoing is true and correct.
Executed on this 3rd day of June, 2021.
Respectfully submitted.
/s/ Susan Chen
Susan Chen
PO BOX 134, Redmond, WA 98073
Tel: (323)902-7038

